t

U)^ ^ "\ij

IN THE
SUPREME COURT OF THE UNITED STATES

Ifty\e^ QronAoo R\ chords

PETITIONER

, n

(Your Name)

111 j
VS.

^nsropwer

%■-i

4]

ei

'h\

— RESPONDENTi

ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
OCT 0 2 2020

un\Teo e>T^rre^
Gth C'\vmS\7 C-rxirT OP APP0Q\\^
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Ky\e P>ranAon PV\ cUQrAgs * (aH\7\E>
(Your Name)

^QrofiQ moyirnom corr*
\?>°t Q m CO qAo e> r<A
(Address)

Bqpqgq . mT ,

S>

(City, State, Zip Code)

no Py>c>n(^,
(Phone Number)

RECEIVED
OCT 1 3 2020
£5gB%0/dRl^y

©)

O

QUESTION(S) PRESENTED

10

GJoS> rnr, PHewQrO'o Oepr'weo OF WHS CaoSTYTcrnon&i
n&HTb To Se\F Pepre&enTQ"non Sy TY\e Tna\
CourTS ^ornmary oen^Ai of v-hs Timely repoesT
To g?o Pro Se.

cP.)

COO& rnr. P\ chtQrcd^b ^Gn'\e.<d FV\«o OoC PrprP-SP)
Rxoht^s by Tne Oesrrucnoo OF Svi^eocc '\n
ba<A V a'sth „ Th\s CoorT rno«oT reverse y-HS
ConvicTion,

30 Q-'O Tv\s TrioH CoorT Forw To impose A
SenTence thpt \s propovT^on^re To
Phchatqs>
CT rcum'bTAOce^ AoO Th£ Orcorn<bTovncCS OF VWS
OFFeose, T\rvereFor<= Srrrrrv\oo} Wm To re^enTenOcv^
M, \

OoeB a Servrence, Neor TKe. Top OF TVvO
‘oerNTeoc"' 03 6u”iA6\\n66 Fao^c, Coost'itoT€. CroCA
Aoo Ono5oA\ Poo\<bhmenT For An OFFertOCV
OO' th be^oos rneoTc^\ He©ATv\ pro^ern^

SJ

QoeC TWl Top 0nd OF Tbe 3enT£ncc For
Spl-rno^ On A GoorO CooerrVYvjTC Crae\ AnO
(jno5oo\ PoT'aHfn^oT beCQUSC C_0°\TV\ AppE.HA.nTS
CoochTioo OF Aeperoers Syndrom Aoq PtsO,
MO yeors \s a v OCQTH bentertce

3

Table of Contents....
Index of Authorities,
Standard of Review.
Statement of Facts...
Argument 1.............
Argument 2.............
Argument 3.............
Argument 4.............
Argument 5............

.<?
.@i

,4
,CS

(1) MR RICHARDS WAS DEPRIVED OF HIS CONSTITUTIONAL RIGHTS
TO SELF REPRESENTATION BY THE TRIAL COURTS SUMMARY
DENIAL OF HIS TIMELY REQUEST TO GO PRO SE
(2) MR RICHARDS WAS DENIED HIS DUE PROCESS RIGHTS BY THE
DESTRUCTION OF EVIDENCE IN BAD FAITH. THIS COURT MUST
REVERSE HIS CONVICTION
(3) THE TRIAL COURT FAILED TO IMPOSE A SENTENCE THAT IS
PROPORTIONATE TO MR. RICHARDS’S CIRCUMSTANCES AND THE
CIRCUMSTANCES OF HIS OFFENSES AND IS THEREFORE ENTITLED
TO RESENTENCING
(A) HISTORICALLY, MILBOURN REVIEW HAS ALWAYS
INCLUDED A MECHANISM FOR ALLOWING DEFENDANTS
TO REBUT THE PRESUMPTION THAT A SENTENCE WITHIN
THE
CONTROLLING
GUIDELINES
RANGE
IS
PROPORTIONATE
(B) MCL 769.34(10) VIOLATES THE RULE OF LOCKRIDGE
BY PRECLUDING DEFENDANTS FROM CHALLENGING
DISPROPORTIONATE SENTENCES THAT HAPPEN TO FALL
WITHIN A GUIDELINES RANGE CALCULATED THROUGH
THE USE OF FACTS FOUND BY A JUDGE, NOT A JURY.
(C) MR. RICHARDS'S 46 MONTH MINIMUM SENTENCE IS
CONSTITUTIONALLY DISPROPORTIONATE TO
HIS
CIRCUMSTANCES AND TO THE CIRCUMSTANCES OF HIS
CRIMES

i

(4) A SENTENCE NEAR THE TOP OF THE SENTENCING
GUIDELINES RANGE CONSTITUTES CRUEL AND UNUSUAL
PUNISHMENT FOR AN OFFENDER WITH SERIOUS MENTAL HEALTH
PROBLEMS
(5) THE TOP END OF THE SENTENCE FOR SPITTING ON A GUARD IS
CRUEL AND UNUSUAL BECAUSE WITH APPELLANT’S CONDITION
OF ASPERGER’S SYNDROME 40 YEARS IS A DEATH SENTENCE
(A) DEFENDANT’S SENTENCE IS DISPROPORTIONATE
AND DISPARATE; THE TRIAL COURT FAILED TO TAKE
INTO ACCOUNT SIGNIFICANT MITIGATING FACTORS
AND FAILED TO TAILOR THE SENTENCE TO THE
INDIVIDUAL OFFENDER
(B) DEFENDANT-APPELLANT OBJECTS TO THE
PLAINTIFF-APPELLEE’S MISLEADING THIS HONORABLE
COURT RE: THE PSIR

li

i

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
( U* £> Exjpver^'e. ccorr 1

Ar'iz.oftA \/s. yoo<^)VD\ooO, \0^ <b. CX. 333
CartferMA Vs~ TrarrVoeTTA

\0H 3. CT. 3S98

p-Qrre~rTA VS. Oal^oPfWA
G,raWarn Vs. ’Ror'Sc^P*

°IS £>.CT, S'PS'b

Hev-neU^ Vs.
X\"r>ots* v«b. Fisher,

130 S. CTU 30"
* \\ £>-CX 3GSO
e.Ct, \PGO

O-'o V3. Cbon^eAez-tope-x ^ I PCs? s.cr
U-£> vs*. 0poWer, \ps &oCi,
STATUTES AND RULES
CJ»‘o Gorj=5C
Con^jT.

^
G?

(j.£> CO^T, Afn 8
^3
CJ»S> Co^'SX-

OTHER

( e^ae. MexT Pd0C )

t38

&

<r

INDEX OF AUTHORITIES
CASES:

Arizona v Youngblood, 488US51; 109SCT333; 102 LEd2d 281, 289(1988)

9

California v Trambetta. 467 U.S. 479; 104 S CT 2528; 81 LEd2d413(1984)

8

Chapman v Price 474 F2D 1223 (9th CIR) 484 F2D 485 (9th Cir 1973)

7

Faretta v California 422 U.S. 806; 95 S Ct 2525; 45LED2D562(1975)

4

Graham v Florida. 560 US 48; 130 S Ct 2011, 2028(2011)

26

Hamelin v Michigan, 501 U.S. 957; 111 S Ct. 2680; 115 L. Ed. 2d836(1991)

.23

Illinois v Fisher. 540 US 544; 124 S CT 1200; 157 LEd2d 1060(1084)

10

Lewis v Robinson 61 Fed Appx 914; (6th CIR 2003)

5

Mckaskie V Wiezens. 465 U.S. 168; 105 S CT 944; 79 LE2d 122 (1984)

7

Miller v Alabama. 132 S Ct2455;(2012)

26

Neder v U.S. 527 U.S. 1; 11 S Ct 1827; 144LED2d35 (1999)
North Carolina v. Pearce. 395 U.S. 711; 89 S.Ct. 2072, 23 L.Ed.2d 656(1969)
People v Albert 89 Mich. App. 350; 280 NW2d 523(1979)...........................
People v Duncan 462 Mich 44, 52; 610 NW2D 551 (2000)

7

29
10
7

People v Anderson. (after remand) 446 Mich 392; 521NW2s538(1994)

14

People v Cannes. 460 Mich 750; 597 NW2dl30(1999)

14

People v Fetterley. 229 MichApp511;(1998)

25

People v Hardaway. 67 Mich App 32; 240 NI,12d 276(1976)

10

People v Houston. 448 Mich. 312; 532 N.W.2d508(1995)

17

People v. Kimble. 470 Mich. 305; 684 N.W.2d 689(2004)

23

in

7

‘Jt

People VKnight. 473 Mich 32, 369 n.ll; 701 NW2d715(2005)

7

People v Lockridse. 498 Mich. 358; 870 N.W.2d 502(2015)

15

People v Lorentzen. 387 Mich. 167; 194 N.W.2d827(l972)

.23

People v McFarlin. 389 Mich 557(1973)

29

People v Milbourn. 435 Mich 630 (1990)

27

Peoples Milbourn. A35 Mich. 630; 461 N.W.2d 1(1990)

16

People vParis. "66 Mich App 276; 420 NW2sl84(1988)

10

People v Russell. 471 Mich at 182

4

People v Schrauben. 314 Mich. App. 181; 886N.W.2dl73(2016)

21

Peop/e v Sinclair. 387 Mich. 91. 151; 194 N.W.2d 878(1972)....

23

People v Steanhouse. 500 Mich.453(2017)

15

People v Triplett. 407 Mich510;(1980)

29

People v. Amos, 42 Mich.App. 629; 202 N.W.2d 486, 490-91 (1972)
People v. Babcock. 469 Mich. 247; 666 N.W.2d 231 (2003)...........

30
20

People v. Brown, 393 Mich. 174; 224 N.W.2d 38 (1974).........
People v. Bullock. 440 Mich. 15; 485 N.W.2d 866 (1992).....

30
20

People v. Conley. 270 Mich. App. 301; 715 N..2d 377 (2006)

.22

People v. Drohan. 475 Mich. 140; 715 N.W.2d 778 (2006)

22

People v. Lockridse. 498 Mich. 358; 870 N.W.2d 502 (2015)

21

People v. McFarlin. 389 Mich. 557; 208 N.W.2d 504 (1973)
People v. Milbourn. 435 Mich. 630; 461 N.W.2d 1 (1990)....

.22

People v. Milbourn. 435 Mich. 630; 461 N.W.2dl(1990)

.25

People v. Pulley. 411 Mich. 523; 309 N.W.2d 170 (1981).............

,23

People v. Schrauben. 314 Mich. App. 181; 886N.W.2d 173(2016)

15

People v. Schrauben. 314 Mich. App. 181; 886N.W.2d 173 (2016)
People v. Steanhouse. 500 Mich.453;(2017)....................................

,25
21

IV

21

■

s

People v. Steanhouse. 500 Mich.453;(2017)....................................................
Rita v. United States 551 U.S. 338; 127 S. ct. 2456; 168 L. Ed. 2d 203(2007)

25
18

Rover v Simmons. 543 US 551; 125 S Ct 1183 (2005)

26

Solem v Helm, 463 U.S. 277; 103 S. Ct. 3001; 77 L. Ed. 2d 637 (1983)

23

Lewis v Robinson 61 Fed Appx 914, 919 (6THCIR2003).......................

5

U.S. v Bettanbcourt-Arretuche. 933 F2d 89, 96 (1st Cir)

7

US. v Gonzalez-lovez, 126 S Ct 2557; 165 LED2D 409 (2006)

7

United States v Booker. 543 U.S. 220; 125 S. Ct. 738; 160 L. Ed. 2d 621 (2005)

19

United States v Booker. 543 US 220; (2004))........................................................
United States v LaSalle. 948 F2d 215; (6th Cir 1991)...........................................

.29
29

United States v Parker, 912 F2d 156; (6th Cir 1990)....

29

United States v Poynter. 495 F3d 349; (6th Cir 2007)..

,29

United States v Simmons, 501 F3d 620; (6th Cir. 2007)

29

USV Dauehterv. 473 F2D 12, 16 (2nd Cir 1965) 384 US 1007, 86 S CT 1950,
16 LEd2d 1020(1966).......................................... .................
Weems v United States. 217 US 349;(1910)........................................................

7
.27

Weems v United States. 217 US 349; 30 S Ct 544; 54 L Ed 793 (1910)........
Williams v. New York. 337 U.S. 241; 69 S.Ct. 1079, 93 L.Ed. 1337 (1949)

.27

.29

US CONSTITUTION:
US Const., 5thAms....

23

U.S. CONST 6th Ams

4

U.S. Const.8th Am

,20

U.S. CONST 14™ AM

.4

v

4

MICHIGAN CONSTITUTION:
MICH Const. 1963, 15

,23

MICH Const. 1963, 16

.20

MICH Const. 1963, 17

,23

MICHIGAN COMPLIED LAWS:
MCL
750.478,

11,12

MCL 750.140

11

MCL 750.149

12

MCL 750.197c(A)

1,15,21

MCL 769.12

15

MCL 769.34(10)..

21

MCL 750.197c(A)

3,25

MCL 763.1

4

MCL 769.12

1,15,25

MCL 769.34(10),

15,16,17,19,21,25

MCL 769.34(2)

16,18

MCL 769.34(2)...

18

MCL 769.34(3)..:

18

MCL 769.34(4)...

18

MCL 769.34

18

MCL 769.64(10))

19

vi

10

-t

OTHER:
Federal and State legislation, Judiciary Act of 1789 section 35/1 Stat 73, 92b

Vll

u
■C'.

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A

^gTYT\<on For

H©fe>eoCorpo'o
APPENDIX B

Or.
GP\rVvQO

APPENDIX C

Coorr OF Appg^\S
Aoq Or^e,r'

a cV-^
o <bo p re.cn <o CjOOTT
OpiOiOfY Aoo Or<^e,F

APPENDIX D
rjY\c*tfcb£i^ coorT of Appeo\\<b
OP*vr^on Ano Or^er
APPENDIX E
U.«o OVoTncT CoorT
Opulton Aoq Order
APPENDIX F
Pen -non of

merm\\ ’Hcqytva Teporr
prooF OF Ol aooqotc VueTQry
P.T-S.O, Aor^cn, po.O, Ect

\s>

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix ^__ to
the petition and is Gtw Cir„ uo# 30" \ 3>S°i
ly] reported at Le.in<o
; or,
V ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is Ca&e#
<SQ-cv- Q3
; or,
ly] reported at
V ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is ( nvicw. 3030 \
PicHovtAbj
'NCPaAHCaFs
^|y] reported at PteoPie
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

Gounr of
court
The opinion of the
appears at Appendix O__to the petition and is
People vs>. P^cV^orAs (mic-w* 30\7 )
M(Q aA
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

15

JURISDICTION
V] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was g><?jpTp.my-3<or 'Lsr OOSTi.
] No petition for rehearing was timely filed in my case.
■''{/] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including_______
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

14
V

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

^

OoS Con<oT, A.m

Aoo

's OesTruonoo of cnoTer\AV tvi<\enoC
boci Faith "
<94

(J»S> Const„ Am. Qj ^no \H

GeoiAi of T^mei/ reQoe&T To
repreeenT myse\F pro
''
f S>e.\F Pep vebaoTOT0) on )
3j

Q -S Const. Am. B aoo \M

Ar»o exTrAOr<^\noniy Cruel
PunlSHmenT OF A menTAWy tw OFFenoer
COWo \QCKS The So Cl A \ AOO ^<^QpT\vc
^KtnS To ‘Survive- PIS ‘oenTence. Or
OoO OQy Achieve P^roiS- ^

Note « This cose
pres ears Very unique
Qoestlonb i'^YoWlo^ The mom\ VaviblTy
OF The onvreo Statcs ; v' rnoss menrsercrnorp
OF meoTMiy lu OFFen^ers Over 3 miuiQo
people Itn America Are UooKeo Op In prison.
TViat means Thai- 1 out OF every
loo Americans
Are *voo=>rceraT£° -,n pnft00>
Over SO v. PsreenT
GP Then dumber Are
menTAuy \\\ aoo Are
OeTiorQTln
■ !3
A prison „

\s

LIST OF PARTIES

VI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

STATemeot

of

The cose

On SopTerntoer let <00^0, The u<tteo ST^rec
Gth CircuiT Goott of Appeo\\S> roieo To oe^y my
App\icoTioo For reiicF* The Gth Orcon ^>AP*F>/
I nve^Tl <S«TeO Loch Oa^ AoO TeAvCO Coley Upon
The rnich^on GOA Opinion \n cnovho®) Thevr
Decision,
Tn

re^ftro To The is^oe OF * Ti mevi n ess ", The
Gth Cl real T hao Fo\eO ThQT * ForreT^ Vs- CQMQoro^A ,
H<Q<P uA 30G, 83&-3G, AFForos Th& Coorr uo Ferrereo
LoTTTac^e vo c^eTermlnio^ The 'Tsmehoess' OF 'A
TeQoeST. The Gth Or. ^osicly CT/SXeO ThCfT The
Trial GoorT Con even oeoy The reQoesr cahen
\t ^ rnooe BCFOPF. Tr\A\„
The Gth cireohr weeos A
ApporeoT\y ( Thev r 1 aTerpreraT* on
CoorTS rul'03 \<=> ^\STorTeO.

of

°\o s FameTTA'
The sopv'ernt

Seeono, is The Gth Or. Assovorevy ? ignored " The
Fact Thot F4GWC of The OFFicere / coynesses
<&o»ca me Spit On Anyone* They C'c^meG ThoT
Their * penphvAi Vision" GaO me ^P'n 00T
OF The Coroer OF Their
The s/'0©o aoo PhoToorapws Fcjvoreo The OeFense,
ioecoose NieTwer Shocoeo Any ivGence.. The
cose coos So coeoF ThoT The NmoTTena\7 CviAeoee
(SpVmei cOoovO Have Cvr-ryAny h>eeo CxeolpaTory
Lost/ is The Gth Qr, tevieo Coley O900 The
TesT'mony qp S3T. hhcjCcAScz. To “voTerpreT 'Prcserv pT\ on'
Po hey, 1050 0 n
v 1 nspecTor' (perrons expert Tesnmcn^

\7

Oeor That Tne
Pancy For SLvXO&nce Preserv oT\OH rsqowc^ thqt
The OFPcers* Sobmm Tv>e'r Aoy
co^h
^FAQ'O^CAX* ^0‘'osBTA^'CC.t0 Q° VT , Ioto ivitience.
Xo<bpecror coe\Too

ver/

pohc/ Teo o\ree a Forervsrc Teom
For £, xtro cTX O o The, Tr \ o \ Cigon^b F\0<^\0^
" oFF\CJtX S'nQO \OOT H ov <S To A30YT For
Thoit a
ForenS\C/S TCOT'" xFb r°v^CO\00<o, * p\Q<oT\C
A
Evidence
Are Avoi^we ao ever/ uovr
Aoo Twe orr^aer Goo\o V\QVC LnSWy Chaleo
H\£> OoNFor m. f P)AO FATTVA '\S> “\' C\exOOSO\o\e ^

|viOTM“»fA2) 1 °

2>
c»w To Quezon
Fin on X/ my Last
The Le^>o\ aoo rno^\ vq\i^t/ OF ^pvl^onino)
&er\oo<by rneox^wy \w Peopxe For e.xcee>sW6\y
Loo^) pgrNO^S OF Tir^C.
There Are Over
* ^

\o

prison

3

in Tv^e

row woo

Peapxe 1 neoreeroreo

o^teo erATee• coenrwnc^

1 GOT OF Lvery ioo AmerlcPnc, Are Vo Pneon,
Therr 1 e On accepTapxe<»
In
The moss -^corcAra-no^ OF TV,e
AS OF OOCD,
1c, a
Humao rt<bv\TS ATroeXT/.
\u
\n\q
Loco Fasts To proTeer The freor^y
X HoctVPV/’
From Prosonfjeo I nc^rceroT\on c
VrecedenT
A<sk Tw\<s CoorT To LstaPAXsm Crspr
From LnroOrcM no r \
To ProTCAT The meoTAhy vh
ALoswe posoo eeoTeoces.

STATEMENT OF FACTS

Mr. Richards was convicted in the Ionia County Circuit Court on 10/20/14 by jury of
Assault of Prison Employee, MCL 750.197c(A) with Fourth Habitual, MCL 769.12. The case arose
out of Mr. Richards' spitting on a corrections officer's arm. See PSIR. Mr. Richards has previously
appealed his case and was remanded for resentencing. See SC: 153694 and COA: 325192.
Mr. Richards has been diagnosed with Asperger's - a form of autism. As defined on
Wikipedia:
Asperger syndrome (AS), also known as Asperger's, is a developmental
disorder characterized by significant difficulties in social interaction and nonverbal
communication, along with restricted and repetitive patterns of behavior and
interests. As a milder autism spectrum disorder (ASD), it differs from other ASDs
by relatively normal language and intelligence. Although not required for diagnosis,
physical clumsiness and unusual use of language are common.] Signs usually begin
before two years old and typically last for a person’s entire life.
The exact cause of Asperger's is unknown. While it is probably partly
inherited, the underlying genetics have not been determined conclusively.
Environmental factors are also believed to play a role. Brain imaging has not
identified a common underlying problem. The diagnosis of Asperger s was removed
in the 2013 fifth edition of the Diagnostic and Statistical Manual of Mental Disorders
(DSM-5), and people with these symptoms are now included within the autism
spectrum disorder along with autism and pervasive developmental disorder not
otherwise specified (PDD-NOS). It remains within the tenth edition of the
International Classification of Diseases (ICD-10) as of 2015.
There is no single treatment, and the effectiveness of particular interventions
is supported by only limited data. Treatment is aimed at improving poor
communication skills, obsessive or repetitive routines and physical clumsiness.
Interventions may include social skills training, cognitive behavioral therapy,
physical therapy, speech therapy, parent training and medications for associated
problems such as mood or anxiety. Most children improve as they grow up, but
social and communication difficulties usually persist. Some researchers and people
on the autism spectrum have advocated a shift in attitudes toward the view that
autism spectrum disorder is a difference rather than a disease that must be treated or
cured.
In 2015, Asperger's was estimated to affect 37.2 million people globally. The
syndrome is named after the Austrian pediatrician Hans Asperger, who in 1944
described children in his practice who lacked nonverbal communication, had limited
understanding of others' feelings, and were physically clumsy. The modem
conception of Asperger syndrome came into existence in 1981 and went through a
period of popularization. It became a standardized diagnosis in the early 1990s.
Many questions and controversies remain about aspects of the disorder. There is
1

VQ|

doubt about whether it is distinct from high-functioning autism (HFA). Partly
because of this, the percentage of people affected is not firmly established.
[See https://en.wikipedia.org/wikilAsperger syndrome]
Most of Mr. Richards' criminal history stems from his struggles with Asperger's and ADHD
and the resulting difficulties with social interactions.
Resentencing was on 5/1 /18. Sentencing guidelines were originally 19 months to 3 8 months
but changed to 12 months to 48 months during resentencing. R 5. Prior to resentencing, Defense
Counsel submitted a sentencing memorandum on behalf of Mr. Richards. See Sentencing
Memorandum. During resentencing, Defense Counsel addressed the programming Mr. Richards
had been successfully participating in and asked for a minimum sentence of 40 months. R 5. In
imposing sentence, the Court stated:
So in this matter, the Court is mindful that we have an agreement that the
sentencing guidelines range, at this point in time, is 12 to 48 months. The Court
previously imposed a 50-month sentence when it was my understanding, or reliance,
on the fact that the top end of the guidelines, at that point, was 58 months.
Again, recognizing a change in the guidelines - I do want to note, Mr.
Richards, that your presentation here today during the course of this proceeding is
certainly much more positive than what it has been in the past, in terms of you being
respectful to the Court and expressing yourself in a coherent and rational manner. I
want to recognize that, but I also don't want to lose sight of the fact that we had a
victim that was humiliated and certainly was concerned about infectious disease.
So keeping those, I guess, balancing concerns here in mind, the Court will
be imposing a sentence. Recognizing that the top end is 48 months, the Court will
impose a 46-month sentence, on the bottom end, to the 40 years that the Court had
previously imposed.
So again, sir, I encourage you to continue to do everything that you can to
improve and better yourself. I'm pleased that you have been engaged in learning.
That has been certainly very positive for you.
[R10-11]
This case presents a very unique situation, Mr. Richards has been diagnosed and treated by
“world renowned” doctors for a myriad of psychological disorders, which include:

2

so
V

1.
2.
3.
4.

5.

Pervasive Developmental Disorder (diagnosed by Dr.
Ismail Sendi - Exhibit A)
Major Depressive Disorder (diagnosed by Mamoun
Dabbagh - Exhibit B)
Oppositional Defiance Disorder (diagnosed by Mamoun
Dabbagh - Exhibit C)
Bipolar Disorder (diagnosed by Mamoun Dabbagh Exhibit C)
Asperger’s Syndrome (diagnosed in 2003-4 by Dr. Todd of
Orchard Hill Psychological Center - Exhibit D)

Mr. Richards was engaged in intensive lifelong mental health treatment before coming to
prison. He was treated extensively at the following facilities:

1.
2.
3.
4.

Havenwyck Hospital (In -Patient 1997 - 2005) (Exhibit E
- Affidavit)
Fact to Face Clinic (2001 - 2005) (Exhibit E - Affidavit)
Orchard Hills Psychological Center (2003 - 2005) (Exhibit
E - Affidavit)
Center for Forensic Psychiarty (2009 - 2018) (Exhibit E Affidavit)

Mr. Richards was also treated by the following personnel:

1.
2.
3.
4.

Dr. Debbie Bastedo (2007 Shelby Township) (Exhibit E Affidavit)
Dr. Debra Sand (2002 - 2003 Orchard Hills Psychological
Center) (Exhibit E - Affidavit)
Dr. Hiten Patel (2000 - 2004 Orchard Hills Psychological
Center) (Exhibit E - Affidavit)
Dr. Norman Ellis (2006 - 2007 Maxey Boys Training
School) (Exhibit E - Affidavit)

Mr. Richards was sentenced on 5/1/18 to 46 months to 40 years for Assault of Prison
Employee, MCL 750.197c(A). See Judgment of Sentence. Mr. Richards now appeals his sentence,
because with his condition of Asperger's Syndrome, his sentence of 40 years is basically a death
sentence.

3

<31

</

ARGUMENT #1
MR RICHARDS WAS DEPRIVED OF HIS CONSTITUTIONAL
RIGHTS TO SELF REPRESENTATION BY THE TRIAL COURTS
SUMMARY DENIAL OF HIS TIMELY REQUEST TO GO PRO SE
ISSUE PRESERVATION AND STANDARD OF REVIEW
The issue Is preserved before trial started Mr. Richards let his counsel know that he wished
to represent himself at trial.

ARGUMENT
The trial court violated Mr. Richards constitutional right to self-representation by denying
him the right to represent himself at trial. Faretta v California 422 U.S. 806; 95 S CT 2525; 45
LED2D 562 (1975) holding that the defendant has a constitutional right to proceed without
counsel.
The trial court did so without making an inquiry whatsoever of Mr. Richards, refusing the
request outright apparently because it was untimely as it had not been raised previously (TT. p.
16) The trial court erred.
The constitutional right to self-representation is well established and had been recognized
since colonial times Faretta 422 U.S. at 818. The Sixth Amendment of the U.S. constitution
guarantees the right to self-representation for all criminal defendants and has been incorporated
to the States through the 14th AM U.S. Const 6th and 14th AMS See Faretta 422 U.S. at 807.
The Michigan constitution expressly safeguards this right as well. Const 1963, art 1,
section 13. People v Russell, 471 Mich at 182. The right of self-representation is also protected
by Federal and State legislation, Judiciary Act of 1789 section 35/1 Stat 73, 92b; MCL 763.1
In Faretta the Supreme Court confirmed the defendants right to self-representation Faretta
422 at 806.

The court held that the lower court violated Farettas 6th AM right to self-

4

representation after Faretta unequivocally told the Judge he wanted to represent himself before
the start of trial. Id at 835-836. The Court stated the language and spirit of the 6th AM
contemplate that counsel, like other defense tools guaranteed by the am shall be an aid of a willing
defendant, not an organ of the state interposes between an unwilling defendant and his right to
represent defense himself personally is at 820. Faretta stressed that trial courts before permitting
defendant to represent himself must determine that he is knowingly and intelligently relinquishing
the benefits of representation of counsel.
Where the trial court absolutely no inquiry of Mr. Richards, instead she simply said NO to
his request for self-representation, seemingly because of the timing and perceived inconvenience
to the court. Although the trial court apparently believed the request for self-representation was
late, the federal constitution right to el representation is not as circumscribed as the court believed.
Under Faretta as long as he defendant is not Seeking self-representation simply to delay
trial, an unequivocal request cannot be denied purely on the basis of the courts convenience.
There was no indicating Mr. Richards was looking to delay trial by his request or requested
to delay the start of trial when representing himself.
Mr. Richards did not believe he’s got a fair trial unless he represented himself. TT P.15
Mr. Richards made his request before the jury had been empaneled TT p. 15. As such, his
request was timely, see Lewis v Robinson< 67 Fed Appx 914, 919 (6th CIR 2003).

A self­

representation request is typically timely is made prior to the election and swearing of the jury.
In this case the jury was neither sworn or selected. Defendant made no request to adjourn trial,
and self-representation would not have disrupted unduly inconvenienced or burdened the
administration of he courts business. See Russel 471 Mich at 190. He was twice found competent
to stand trial, wrote and argued several motions pro per and repeated his request during trial. PT

5

QB

mt.

2-13-14 page 4; PT 4-22-14 page 20 PT 6-30-14 page 36 PT 9-9-14 page 43 PT 10-17-14 page
67.
faced with timely request by defendant to represent himself, Faretta requires the trial court
to grant the request of the waiver is knowing, intelligent and voluntary, and there is no affirmative
showing that the request is being made purely to delay. There was every indication Mr. Richards
was making the decision to represent himself knowingly, intelligently and voluntary and even
expressed his desire to represent himself twice. i&EPI&gSPi HS2^SilSl2£3L. tt pp 151 and 180.
The trial court had abused its discretion and violated Mr. Richards right to selfrepresentation when it denied his timely request without making any further inquiry, purely on the
grounds of the convenience of the court.
Defendants request was not an 11th hour request. In fact, defendant advised his counsel
weeks before trial started that he was going to represent himself.
In fact, that every morning defense counsel advised the judge of the defendant decision to
go pro se. see TT pgs. 14-16.
In the words of defense counsel:
Your Honor. I’m sorry. Mr. Richards communicated to me that he’s
like to represent himself. I stated in chambers earlier, my idea of how to try this
case and his idea of how to try this case are diametrically opposed and he doesn’t
believe he’s going to get a fair trial if he doesn’t represent himself. TT page 15;
In 1-15.
The trial court was well aware long before trial that defendant was
going to represent himself. Even if the court wasn’t the request was still timely.
Since the jury neither sworn nor empaneled defense counsel iterated he spoke in
chambers with the judge weeks before trial.
Self-representation would not have burdened disrupted nor inconvenienced the court.
Defendant made no request for adjournment or accommodation see TT p„ 15. The
prosecution never objected. In fact, Prosecutor Butler concurred with defendants’ request.

6

I think its defendants right to represent himself...but it’s the discretion of
the court, whether Mr. Richards can represent himself adequately or I he
assistance of an attorney would be sufficient...basically sitting 2nd chair TT p 15.
Defendant going pro se, would have had the aid of advisory counsel, sitting 2nd chair
throughout trial, defense counsel would have been there the entire time to take over if necessary.
The U.S. Supreme Court held that a trial courts erroneous denial of defendants right to self­
representation is a structural defect necessitating automatic reversal. U.S. v Gonzalez-lopez, 126
S Ct 2557, 2564; 165 LED2D 409 (2006) listing the denial of self-representation as a structural
error. Mckaskie V Wieeens. 465 U.S. 168, 177-178, N.8; 105 S CT 944L 79 LE2D 122 (1984)
(finding the denial of ones right to counsel have consequences that are unquantifiable and
indeterminate, unquestionably qualifies as structural error.)
In Duncan, The Michigan Supreme Court found the denial of the right to self-representation
as one example of a structure error subject to automatic reversal. People v Duncan 462 Mich
44, 52; 610 NW2D 551 (2000) citing Neder v US 527 U.S. 1; 11 S Ct 1827; 144 LED2d 35
(1999) see also People VKnisht 473 Mich 32, 369 n.ll; 701 NW2d 715 (2005).
In sum Mr. Richards was denied his right to Self-representation this denial constitutes a
structural error necessitating reversal of his conviction.
NOTE: A long list of authorities makes clear that a request for self-representation is timely
if it is made before trial, see U.S. v Bettanbcourt-Arretuche, 933 F2d 89, 96 (1st Cir) in general a
Faretta request is timely if its timely if it’s made before the jury in empaneled. 11 S Ct 421
(1991); Chapman v Price 474 F2D 1223 1227 (9th CIR) 484 F2D 485 (9th Cir 1973) US V
Dauehterv. 473 F2D 12, 16 (2nd Cir 1965) 384 US 1007, 86 S CT 1950, 16 LED2D 1020 (1966).

7

«£>S
X

ARGUMENT # 2
MR RICHARDS WAS DENIED HIS DUE PROCESS RIGHTS BY THE
DESTRUCTION OF EVIDENCE IN BAD FAITH. THIS COURT MUST
REVERSE HIS CONVICTION

ISSUE PRESERVATION AND STANDARD OF REVIEW

At a hearing on May 20th 2014 Defendant requested the case be dismissed because of the
State’s failure to preserve evidence either from the Saliva or the clothing. P.T. 5-20-14 his motion
was denied. Additionally, Mr. Richards renewed his motion at a pretrial conference on September
9th, 2014 P.T. 5-2014 pg. 9. PT 9-9-14 pg. 43 This issue is well preserved.

ARGUMENT
Mr. Richards was denied his right to a fair trial and present a defense by the destruction of
the evidence in this case. State actions had material and potentially exculpatory evidence in their
possession namely saliva on the officer’s arm clothing and rag used to wipe away the saliva. The
officers failed to preserve the evidence in accordance with their own policy P.D. 03.03.105 page
3 and the evidence was destroyed before Mr. Richards had any opportunity to have it tested or
analyzed.
A defendant has a constitutional right to request and obtain from the prosecution evidence
that is either material to his guilt or relevant to the punishment he is to receive. California v
Trambetta. 467 U.S. 479, 485: 104 S CT 2528; 81 LEd2d 413 (1984).
Evidence meets this standard of constitutional materiality when it possesses both an
exculpatory value that was apparent before the evidence was destroyed and is of such nature that

8

s>c?

the defendant would be unable to obtain comparable evidence by other reasonably available
Trombetta 467 US. at 489.
Even in the absence of a specific request, the prosecutor has a constitutional duty to disclose
evidence that would raise a reasonable doubt about a defendant’s guilt. Trombetta 467 U.S. 479.
Where the government’s failure to provide evidentiary access to the accused deprives him of
complete defense, the governments inaction violates the due process clause.
While the constitutional protection against destruction of evidence is more limited than 'then
the government fails to disclose material exculpatory evidence. The privilege does include the
safe keeping of potentially exculpatory evidence from loss or destruction while in government
custody. Arizona v Youngblood. 488 US 51, 57; 109 S CT 333, 337; 102 LEd2d281, 289 (1988).
Trombeta, 467 U.S. 479. Police and prosecutors must act in good faith to preserve evidence that
might be expected to play a significant role in a suspect’s defense Youngblood. 488 US at 58.
In Youngblood and Trombetta, supra, the Supreme Court determined that the government is
not required to preserve all evidence that, could possibly be construed as exculpatory with respect
to a defendants’ trial or sentencing. Youngblood, 488 US at Rather the government violates a
defendants’ due process rights where the government acts in Bad faith destroying potentially
useful evidence, rd.
The Supreme Court defined potentially useful evidence as evidences which might be
exonerated the defendant Id at 57. In order to establish BAD FAITH, a defendant must show that
the government destroyed evidence (1) Whose exculpatory significance was apparent before its
destruction, and (2) the defendant remains unable to obtain comparable evidence by other
reasonably available means Trombetta 467 U.S. at 489; see also Illinois v Fisher, 540 US 544;
124 S CT 1200; 157 LEd2d 1060 (1084).

9

97
M

In the case before this court, the exculpatory significance was apparent testing what the
officers believed to be saliva, on either the officers arm, clothing the rag, could rule out Mr.
Richards as the source or could have revealed that the was not saliva at all, but rather water. Since
all samples have been destroyed, Mr. Richards is not able to obtain any such comparable evidence.
This was not case of destruction of evidence in accordance with a reasonable policy. See
e.g. People v Hardaway, 67 Mich App 32; 240 NI,12d 276 (1976) The policy in this case was
actually for preservation. Bellamy Creek (TRC) Operating Procedure O.P. 03.03.105 page 3
indicates that for a class J misconduct reporting staff is to:
Ensure any evidence involved with the misconduct is properly
marked, photographs, tagged, and placed in an appropriate container,
i.e. plastic evidence tube, paper, or plastic bag, etc ...along with a
copy of the misconduct report and contraband removal record (CSJ
284) Location of the evidence should be noted on the misconduct.
Photographs should be taken of perishable items, properly signed,
dated and description of evidence, attached to the misconduct report
and after verified by the reviewing officer, the perishable items will
be destroyed. IBC 03.03.105 page 3.
Here, there were photographs taken, but no efforts to save the saliva, clothes, or tag used to
wipe off the saliva. No effort was top preserve the substance. In fact, officers made effort to the
contrary. The evidence was knowingly and intentionally destroyed by the officers’ actions, thus
BAD FAITH should be presumed and a reversal warranted ensuring the justice system is not
endangered by police misconduct, see People v Albert 89 Mich. App. 350, 354; 280 NW2d 523
(1979).
In People v Paris, "66 Mich App 276, 283; 420 NW2s 184 (1988) The Michigan Court of
Appeals found reversible error where the original notes of the police interview with the accused
were destroyed. The Court examined the following factors:
(1) Whether the suppression was deliberate;
(2) whether the evidence was requested and
10

<P8

r

(3) Whether hindsight discloses that the defense could have put the evidence to not
insignificant use.
Id at 283 (citations omitted) Like in Paris, the officers not only failed to take a sample off the
officers’ arm, but also failed to preserve any samples from his clothing or the rag that was used to
wipe off his arm. Failure to preserve any samples was in clear violation of MDOC’s own policies.
Had the samples been preserved, they would have been instrumental in Mr. Richards
defense to show that he had not spit on the officer. Mr. Richards had no other means for obtaining
the lost evidence. Defendant was completely deprived of his ability to test the saliva to see if it
was in fact saliva or merely water, or to analyze it for DNA to determine if it had come from him,
in a case where it was his word versus the officers, this was crucial for his defense.
BAD FAITH IS PRESUMED
Bad Faith is presumed because officers failed to follow their evidence presentation Policy
IBC 03.03-025 page 3.
Officers deliberate disregard of the state’s evidence presentation Policy 02.03.105 page 3
also constituted a state felony, in violation of State law, concealing and compounding a criminal
offense MCL 750. 140 Obstruction of Justice, Tampering with evidence, and neglect of duty,
750.478. By state law, destroying evidence is a criminal act,
The prosecution absurdly tried to argue that it was not reasonable for an officer to wait for a
forensic team to collect a sample. Such a notion is ridiculous, nothing in policy requires a forensic
team for extraction.
Plastic evidence bags are available at every unit facility. The officer is merely obligated by
state policy to place his pants, shirts and rag he used to his in. The facility evidence locker. Extra
clothes are available at facility for the officer to change into.

11

Officers testimony at trial revealed that the alleged substance was visible on the victims
clothing articles TT page 125.

SGT. NICEWICZ: There may have been a very small amount on his pants
leg.
Nothing in IBC 03.03.105 requires a forensic team. The Prosecutors assertion is absolutely
baseless. All the officer had to do was place his clothing in an evidence bag, or transfer the saliva
from his arm onto a rag and place the rag into a bag.
Instead the officer deliberately destroyed the saliva, pants, shirt and rag. The illegal
destruction of evidence violated state MCL 750-149 MCL 750 .478, and constitutes illegal
obstruction of justice: The controversy here is not that the officers merely failed to follow their
own evidence preservation policy, but rather the officers committed an illegal felony act by
destroying evidence.
State Law defines illegal destruction of evidence under the following felony statutes:
MCL 750.149 Concealing evidence
MCL 750.478 Neglect of Duty
MCL 750. 478a Obstruction of Justice
Gross neglect of duty to preserve the evidence is a felony of itself.
When asked by the State at trial, if it was routine to collect articles of clothing with biological
substances on it, the highest ranking officer stated: TT page 141:
INSPECTOR WELTON: If it was something obviously that stood
right out on it, yes we would take shirt or a pair of pants and put them
in a paper bag so the evidence wouldn’t degrade.
Inspector Welton is the highest ranking officer of relevant witnesses called. By rank alone
the Inspector would be an expert witness in terms of addressing policy application of IBC 03.03
105-page Prison policy and state law were clearly violated Bad faith is irrefutable.

12

3D

EVIDENCE WAS EXCULPATORY
The State absurdly claimed that the evidence was not potentially exculpatory simply
because 2 officers testified that they vaguely saw or thought they saw Defendant spit through a
slot. Worse, they claimed they witnessed the assault through their peripheral vision. See TT page.
124.
PEOPLE: Did you see him get spit on?
* SGT NICEWICZ No Sir.
% C/O BAIMES I seen him out of the comer of my eye(See TT page 70^
* C/O HUDSON Through my peripheral vision I saw that when he bent
down spitting through the slot.(See TT page 111.}
Absurdly the prosecution claims this testimony was enough to preclude that DNA would
have had any exculpatory value. The prosecution is wrong. The entire case rested on the peripheral
vision of 2 officers who thought they saw something.
VIDEO EVIDENCE
Video evidence proved the officers were lying. The video was played at, trial. The Video
favored the defense. The Video shows explicitly that No substance of any kind was ever ejected
from the slot. The Video has a direct view of the door slot. Nothing ever Ejects.
DEFENSE: What is the purpose of the photographs?
SGT NICEWICZ: Showing evidence
DEFENSE: Does it?
SGT NICEWICZ: NO
DEFENSE: IT DOESNT Show IT AT ALLfsee TT 131)

( ‘see, TrtM

Also the Video shows the officers hacks were turned in the opposite direction. If, was not
physically possible for the officers to have saw the alleged act, even in their peripheral vision.
There was no line of sight, not even peripheral. The video was exculpatory (See page TT131. )

13

J

3\

V
PHOTOGRAPHS
The photographs were exculpatory. No substance was visible on any photographs*Tfje
photographs prove there was nothing on any officer. Any small visagetf substances seei} reflected
water^f not spittle.
*. NOTE: Officer Baimes is seen in the video kicking a trash can, then trash can be seen
splashing him.

( P\ec^>e
tcm
xoooeje,oc&«

v\oeo Tor PteoT Ov

J

BY all accounts, evidence greatly favored the defendants evidence. Officers testimony
contradicted the video and photo evidence. The entire case rested on a credibility contest of which
DNA testing would have resolved.
People lie. Any sentient creature can conjure a lie. However, DNA evidence cannot lie.
Even in the case Where a 100 officers could claim to have saw one thing. A DNA test could
overrule a million witnesses. IN terms of evidentiary value DNA science reigns supreme.
For the above reasons, Mr. Richards was hopelessly impeded in his attempts to mount his
own defense or challenge the prosecutors case. The people cannot show this error was harmless
beyond a reasonable doubt. People v Cannes, 460 Mich 750,774; 597 NW2d 130 (1999) citing
People v Anderson, (after remand) 446 Mich 392; 521 NW2s 538 (1994)
This Court should set aside Mr. Richards conviction.

14

3>Q

ARGUMENT # 3
THE TRIAL COURT FAILED TO IMPOSE A SENTENCE
THAT IS PROPORTIONATE TO MR. RICHARDS'S
CIRCUMSTANCES AND THE CIRCUMSTANCES OF HIS
OFFENSES AND IS THEREFORE ENTITLED TO
RESENTENCING.
Introduction:
This Court should grant leave to appeal and undertake proportionality review of Mr.
Richards's sentence. He acknowledges that his 46-month minimum term is at the top end of the
controlling guidelines ranges for his offense of convictions, Assault of Prison Employee, MCL
750.197c(A) with Fourth Habitual, MCL 769.12. He further acknowledges this Court's
determination that MCL 769.34(10) bars resentencing absent a showing that the trial court erred in
scoring the guidelines variables or otherwise relied upon inaccurate information. People v.
Schrauben. 314 Mich. App. 181, 196; 886 N.W.2d 173 (2016).!
Mr. Richards submits, however, Schrauben that neither nor any other decision of the
Michigan Court of Appeals or this Honorable Court addresses whether MCL 769.34(10) survives
this court’s ruling in People v Lockridse, 498 Mich. 358, 392; 870 N.W.2d 502 (2015). In addition,
this Honorable Court, in People v Steanhouse, 500 Mich. 453 (2017), expressly acknowledged that
it remains an open question "whether MCL 769.34(10), which requires the Court of Appeals to
affirm a sentence that is within the guidelines absent a scoring error or reliance on inaccurate
information in determining the sentence, survives Lockridge." For the reasons discussed below,
this Court should hold that it does not.
Issue Preservation: This Court has not articulated a preservation requirement for
challenging the proportionality of a sentence falling within the legislative guidelines range. This
is not surprising, given that the legislative guidelines preclude a court from disturbing such a

15

33

sentence. MCL 769.34(10); Schrauben. 314 Mich. App. at 196. The issue, therefore, remains an
open question. See Steanhouse. 500 Mich. 453 (2017). However, under the "principle of
proportionality" standard set forth by People v Milbourn„ 435 Mich. 630, 635-636; 461 N.W.2d
1 (1990), which is the same standard that this Court adopted to govern appellate review of post
Lockridge sentences, Steanhouse, at 473, "even a sentence within the sentencing guidelines could
be an abuse of discretion in unusual circumstances." Milbourn, 435 Mich, at 661. "[T]he key test
is whether the sentence is proportionate to the seriousness of the matter, not whether it departs
from or adheres to the guidelines' recommended range, 't Id
Here, the "unusual circumstances" surrounding Mr. Richards sentence include the nature of
his prior convictions which all stem from his on-going struggle with mental health disabilities
Asperger's Syndrome and ADHD along with occasional suicidal ideations. In addition, infonnation
was given to the sentencing Court to that effect. See PSIR. Given this record, this Court should
consider this issue preserved for appeal.

Standard of Review:
An appellate court's proportionality review considers whether the sentence is proportionate
to the seriousness of the defendant's conduct and to the defendant in light of the criminal record.
Steanhouse„ at 474; Milbourn. 435 Mich, at 635-636.
(A) HISTORICALLY, MILBOURN REVIEW HAS ALWAYS
INCLUDED
A
MECHANISM
FOR
ALLOWING
DEFENDANTS TO REBUT THE PRESUMPTION THAT A
SENTENCE WITHIN THE CONTROLLING GUIDELINES
RANGE IS PROPORTIONATE.
Before this Honorable Court's decision in Lockridge. the legislative sentencing guidelines
were binding upon trial judges. Lockridge, 498 Mich, at 387 (citing MCL 769.34(2)). Lockridge
held unconstitutional that portion of the guidelines that made them mandatory and replaced it
16

3H

e
within an advisory scheme. Id at 364, 387-389, 391-392. After Lockridse, sentencing courts still
"must determine the applicable guidelines range and take it into account when imposing
sentence”. Id. at 365. But courts need not articulate substantial and compelling reasons for
departing above or below that range; rather, the sentence only has to be "reasonable." Id. at 392.
Even after Lockridse, a sentencing court must "justify" its sentence in order to facilitate
appellate review. Id. Appellate courts would then review for "reasonableness." Lockridse, 498
Mich, at 392. Although Lockridse limited it discussion of this “reasonableness" standard to
departures from the guidelines range, there was no qualifier to the Court's subsequent statement
that "resentencing will be required when a sentence is determined to be unreasonable. " Id.
The Lockridge Court did not elucidate a framework for considering the reasonableness of
a departure. The Supreme Court, however, recently adopted the Milbourn "principle of
proportionality" test that once applied to departures from the judicial sentencing guidelines.
Steanhouse. at 473. Under Milbourn, "an appellate court's first inquiry should be whether
the case involves circumstances that are not adequately embodied within the variables used to
score the guidelines." Milbourn, 435 Mich, at 659-660. Specifically, reviewing courts must
consider factors such as: (1) the seriousness of the offense, (2) factors not considered by the
guidelines, and (3) factors given inadequate weight by the guidelines in a particular case. Id. at
660: People v Houston, 448 Mich. 312, 321-324; 532 N.W.2d 508 (1995).
As a general rule, a sentence that fell within the range recommended by the judicial
guidelines were presumed to be neither excessive nor disparate. Milbourn, 435 Mich, at
660-661. But Milbourn itself recognized that "conceivably, even a sentence within the sentencing
guidelines could be an abuse of discretion in unusual circumstances." Id at 661. Defendants could
therefore overcome the presumption of proportionality by presenting evidence of "uncommon" or
"rare" circumstances. Id.
17

r-

(B) MCL 769.34(10) VIOLATES THE RULE OF
LOCKRIDGE BY PRECLUDING DEFENDANTS FROM
CHALLENGING
DISPROPORTIONATE
SENTENCES
THAT HAPPEN TO FALL WITHIN A GUIDELINES RANGE
CALCULATED THROUGH THE USE OF FACTS FOUND BY
A JUDGE, NOT A JURY.

This Court should conclude as an initial matter that the first sentence of MCL 769.34(10)
is no longer valid. That statutory subsection begins: "If a minimum sentence is within the
appropriate sentence guidelines range, the court of appeals shall affirm that sentence and shall
not remand for resentencing absent an error in the scoring of the sentencing guidelines or
inaccurate information relied upon in determining the sentence." Because Lockridge declared the
legislative sentencing guidelines to be advisory rather than mandatory, there can be no mandatory
presumption of reasonableness. Rather, there must be a mechanism for rebutting the
presumption— similar to the one that existed in the Milbourn era and to the one that continues
to function in federal court. See Rita v. United States 551 U.S. 338, 347; 127 S. ct. 2456; 168 L.
Ed. 2d 203 (2007) (discussed infra).
To cure the constitutional defect found in the mandatory sentencing guidelines, Lockridge
"sever[ed] MCL 769.34(2) to the extent that it is mandatory and [struck] down the requirement
of a 'substantial and compelling reason' to depart from the guidelines range in MCL 769.34(3)."
Lockridge, 498 Mich, at 391. It further recognized that other portions of MCL 769.34 might
need to be severed in the future: "To the extent that any part of MCL 769.34 or another statute
refers to use of the sentencing guidelines as mandatory or refers to departures from the guidelines,
that part or statute is also severed or struck down as necessary." Id. at 2 and n. 1. Indeed, the
Court of Appeals has already relied upon this holding to strike down that part of MCL 769.34(4)
which made intermediate sanctions mandatory whenever the top end of the range equaled 1 8
months or less. Schrauben, 314 Mich. App. at 195.

18

3G

The Schrauben Court did not address whether MCL 769.34(10) contained mandatory
language of the same type that was fatal to the subsection addressed to intermediate sanctions. It
simply assumed without analysis that sentences within the controlling guidelines range "must be
affirmed unless there was an error in scoring or the trial court relied on inaccurate information.
Id. at 196 (citing MCL 769.64(10)). Consequently, a mandatory, irrefutable presumption of
proportionality—fashioned by the Legislature to-fit a scheme in which adherence to the
guidelines was mandatory—continues even though our Supreme Court has held that the
guidelines, to pass constitutional muster, must now be treated as advisory.
This is far different than the approach used in the federal sentencing scheme which
inspired the Lockridge remedy. In Rita, supra, the United States Supreme Court examined the
reasonableness of a federal sentence imposed after the federal guidelines were declared advisory
in United States v Booker. 543 U.S. 220, 261 -263; 125 S. Ct. 73 8; 160 L. Ed. 2d 621 (2005). The
Rita Court held that "[a] nonbinding appellate presumption that a Guidelines sentence is
reasonable" does not violate the Sixth Amendment principles underlying Booker. Rita, 551 U.S.
at 352-353 (emphasis added). After all, "presumptively reasonable does not mean always
reasonable; the presumption, of course, must be genuinely rebuttable." Rita, 551 U.S. at 366
(Stevens, J., concurring) (emphasis in original).
An irrefutable presumption, on the other hand, raises Sixth Amendment problems. Even
after Lockridse. sentencing courts must continue to score the guidelines using facts found by the
judge by a preponderance of the evidence. Lockridse. 498 Mich, at 3 65. By imposing a mandatory
presumption, MCL 769.34(10) ensures that "some sentences . . . will be upheld as reasonable
only because of the existence of judge-found facts." Rita, 551 US at 373 (Scalia, J., concurring
in part and concurring in the judgment). This Court should therefore determine that MCL
769.34(10) is incompatible with Lockridge.

19

37

v

(C) MR. RICHARDS'S 46 MONTH MINIMUM SENTENCE IS
CONSTITUTIONALLY DISPROPORTIONATE TO HIS
CIRCUMSTANCES AND TO THE CIRCUMSTANCES OF
HIS CRIMES

Both the federal and state constitutions forbid the imposition of a disproportionate sentence.
U.S. Const., Am. VIII, Const. 1963, art 1, § 16; People v. Bullock. 440 Mich. 15, 37; 485
N.W.2d 866 (1992). Sentences must be proportional to the seriousness of the circumstances
surrounding the offense and the offender. People v. Babcock. 469 Mich. 247, 262; 666 N.W.2d
231 (2003); Milbourn, 435 Mich, at 636. Mr. Richards's 46-month minimum is not proportional
to the seriousness of this offense - this is not a case where physical contact occurred that resulted
in an injury, Mr. Richards spat on the correction officer's arm. Mr. Richards has no known
communicable diseases.
Proportionality review examines two factors—the severity of the offense and the
seriousness of the offender's criminal record. Milbourn, 435 Mich, at 636. In the instant case,
Mr. Richards's record comes from his struggle with his ongoing mental health issues that have
gone untreated for the most part. See PSIR in general. In addition, Mr. Richards's near the top of
the guidelines sentence is not reasonable because it was based on factors inadequately reflected
in the guidelines range. Milbourn. 435 Mich at 659-660.
In sum, Mr. Richards s mental health issues and the lack of treatment thereof was not
given enough weight in justifying the imposition of a 46 months' sentence. The sentence is
unreasonable and disproportionate. This Court should reverse and remand for resentencing and
ORDER the MDOC to transfer Mr. Richards to an appropriate facility where Mr. Richards's
mental health issues will be better addressed.

20

38

j-

ARGUMENT # 4
A SENTENCE NEAR THE TOP OF THE SENTENCING
GUIDELINES RANGE CONSTITUTES CRUEL AND UNUSUAL
PUNISHMENT FOR AN OFFENDER WITH SERIOUS MENTAL
HEALTH PROBLEMS.
Introduction: This Court should grant leave to appeal and undertake review of Mr.
Richards's sentence. He acknowledges that his 46-month minimum term is at the top end of the
controlling guidelines range for his offense of convictions, Assault of Prison Employee, MCL
750.197c(A) with Fourth Habitual, MCL 769.12. He further acknowledges this Court's
determination that MCL 769.34(10) bars resentencing absent a showing that the trial court erred
in scoring the guidelines variables or otherwise relied upon inaccurate information. People v
Schrauben, 314 Mich. App. 181, 196; 886 N.W.2d 173 (2016).
Mr. Richards submits, however, Schrauben that neither nor any other decision of this Court
or of the Michigan Court of Appeals addresses whether MCL 769.34(10) survives this Honorable
Court's ruling in People v. Lockridse. 498 Mich. 358, 392; 870 N.W.2d 502 (2015). In addition,
the Honorable Court, in People v. Steanhouse, 500 Mich. 453 (2017), expressly acknowledged
that it remains an open question "whether MCL 769.34(10), which requires the Court of Appeals
to affirm a sentence that is within the guidelines absent a scoring error or reliance on inaccurate
information in determining the sentence, survives Lockridge." For the reasons discussed below,
this Court should hold that it does not.
Issue Preservation: This Court has not articulated a preservation requirement for challenging
a sentence falling within the legislative guidelines range. This is not surprising, given that the
legislative guidelines preclude this Court from disturbing such a sentence. MCL 769.34(10);
Schrauben, 314 Mich. App. at 196. The issue, therefore, remains an open question. See
Steanhouse, 500 Mich. 453 (2017). However, under the "principle of proportionality" standard set
forth by People v. Milbourn, 435 Mich. 630, 635-636; 461 N.W.2d 1 (1990), which is the same
standard that this Court adopted to . govern appellate review of post-Lockridge sentences,
Steanhouse, at 473, "even a sentence within the sentencing guidelines could be an abuse of
21

J

discretion in unusual circumstances." Milbourn, 435 Mich at 661. "[T)he key test is whether the
sentence is proportionate to the seriousness of the matter, not whether it departs from or adheres
to the guidelines' recommended range. Id
Here, the "unusual circumstances" surrounding Mr. Richards sentence include the nature
of his prior convictions which all stem from his on-going struggle with mental health disabilities
Asperger's Syndrome and ADD along with occasional suicidal ideations. In addition,
information was given to the sentencing Court to that effect. See PSIR. The MDOC is not
adequately addressing his mental health needs. Given this record, this Court should consider this
issue preserved for appeal.
Standard of Review: Generally, a Court reviews a trial court’s sentencing decisions for
an abuse of discretion. People v. Conley, 270 Mich. App. 301, 312; 715 N..2d 377 (2006).
Questions of constitutional law, however, are subject to de novo review. People v. Drohan, 475
Mich. 140, 146; 715 N.W.2d 778 (2006).
Discussion: Mr. Richards's claim is based on long-established principles, that a fair and
proportionate sentence is based upon a trial court's consideration of the nature of the offense and
the culpability and criminal history of the offender. Sentences must also be individualized
to fit the offender and the offense:
"The modem view of sentencing is that the sentence should be
tailored to the particular circumstances of the case and the offender in an
effort to balance both society's need for protection and its interest in
maximizing the offender's rehabilitation potential. While the resources
allocated for rehabilitation may be inadequate and some persons question
whether rehabilitation can be achieved in the prison setting, this view of
sentencing is the present policy of the state. A judge needs complete
information to set a proper individualized sentence." People v. McFarlin,
389 Mich. 557; 208 N.W.2d 504 (1973).
To tailor the sentence to the individual, the judge must gather complete and detailed
information about the defendant, assess the reliability of the information received, assure that it
is reasonably up-to-date, determine its competency as a sentencing consideration, and resolve
22

HO

challenges to its accuracy. People v. Pulley, 411 Mich. 523, 529-530; 309 N.W.2d 170 (1981).
Although the Michigan sentencing guidelines are the presumptive indicia of the appropriate
sentence in a given case, if there are factors which distinguish the crime or the criminal as more
or less serious than same crimes by other offenders, the individual sentence should reflect these
facts. ESPPte v. Kimble, 470 Mich. 305, 310-311; 684 N.W.2d 689 (2004); Milboum, supra, 645,
653.
In exercising sentencing discretion, the trial court must not apply his or her own subjective
philosophy of sentencing, and should not rely on factors already taken into account. Milboum,
supra, 653, 658 (1990),
The above requirements are the underpinnings of proportionality principles.
Proportionality is the threshold requirement for a valid sentence. It derives from both the federal
and state constitutions, which are sources of due process protections separate and distinct from
the statutory guidelines, which are legislative. Accordingly, the proportionality requirement is
not extinguished or "trumped" by a state statute, including the sentencing guidelines statute. A
disproportionate sentence may violate the constitution Amendment VIII's ban on cruel and
unusual punishment regardless of whether it is based on accurate Michigan guidelines scoring.
Solent v Helm, 463 U.S. 277; 103 S. Ct. 3001; 77 L. Ed. 2d 637 (1983); Hamelinv Michigan
501 U.S. 957; 1 11 S. ct. 2680; 115 L. Ed. 2d 836 (1991); US Const., Ams. V, XIV, Const. 1963,
17, 15. As this Honorable Court observed in People v Sinclair, 387 Mich. 91, 151; 194 N.W.2d
878 (1972): It is ludicrous to suppose that the people who prohibited excessive fines and bail and
cruel or unusual punishment intended thereby to vest unbridled power in judges to require bail,
impose fines and inflict punishments. It is equally unrealistic to conclude that the people intended
to permit the legislature to give such unbridled power to the trial courts in the name of
indeterminate sentencing. See also, People v Lorentzen, 387 Mich. 167, 175; 194 N.W.2d 827
(1972) ["the Constitution has not left the liberty of the citizen of any state entirely to the

23

c

indiscretion or caprice of its judiciary, but enjoins upon all that unusual punishments shall not be
inflicted.ii

Tests for proportionality under the federal and state constitutions are similar. A court's
proportionality analysis under the Eighth Amendment is guided by objective criteria, including
(1) the gravity of the offense and harshness of the penalty; (2) the sentences imposed on
other criminals in the same jurisdiction; and (3) the sentences imposed for commission of the
same crime in other jurisdictions. Solem v. Helm, supra. The Supreme Court in Milbourn defined
"proportionality" as a consideration of the seriousness of the offense in conjunction with the
seriousness of the offender. The most serious punishments are to be reserved for the "most serious
combinations of the offense and the background of the offender." Id., 667. (Emphasis added).
Offenders with prior criminal records are likewise subject to harsher punishment than those with
no prior convictions, as is reflected in the specific habitual offender provisions of the penal
statutes. Id. Although the guidelines are now legislative in origin, the basic constitutional
principles are still in place.
Mr. Richards' case is a classic example of a situation in which adherence to the guidelines
range alone, without consideration of his mental health disabilities in the circumstances of the
offense, resulted in punishment which does not commensurate with constitutionally-mandated
proportionality requirements. The trial court ignored the mitigating factors and focused solely on
the number of circumstances of the incident. The trial court abused its discretion.

24

HP

e
ARGUMENT # 5
THE TOP END OF THE SENTENCE FOR SPITTING ON A
GUARD IS CRUEL AND UNUSUAL BECAUSE WITH
APPELLANT’S CONDITION OF ASPERGER’S SYNDROME 40
YEARS IS A DEATH SENTENCE.
Introduction: This Court should grant leave to appeal and undertake proportionality
review of Mr. Richards's sentence. He acknowledges that his 46-month minimum term is at the
top end of the controlling guidelines range for his offense of convictions, Assault of Prison
Employee, MCL 750.197c(A) with Fourth Habitual, MCL 769.12. He further acknowledges this
Court's determination that MCL 769.34(10) bars resentencing absent a showing that the trial court
erred in scoring the guidelines variables or otherwise relied upon inaccurate information. People
v. Schrauben, 314 Mich. App. 181, 196; 886N.W.2d 173 (2016).
However, it is the maximum that is not proportional and results in cruel and unusual
punishment considering Mr. Richards’ mental health issues.
Here, the "unusual circumstances" surrounding Mr. Richards sentence include the nature of
his prior convictions which all stem from his on-going struggle with mental health disabilities Asperger's Syndrome and ADD along with occasional suicidal ideations. (See Appendix A Richard’s History of Asperger’s Syndrome).
Standard of Review: An appellate court's proportionality review considers whether the
sentence is proportionate to the seriousness of the defendant's conduct and to the defendant in light
of the criminal record. People v. Steanhouse, 500 Mich. 453, 474 (2017); People v. Milbourn, 435
Mich. 630, 635-636; 461 N.W.2d 1 (1990). Sentencing decisions are generally reviewed for an
abuse of discretion. People v Fetter lev, 229 Mich App 511, 525 (1998).

25

M3

4

(A).DEFENDANT’S SENTENCE IS DISPROPORTIONATE
AND DISPARATE; THE TRIAL COURT FAILED TO
TAKE INTO ACCOUNT SIGNIFICANT MITIGATING
FACTORS AND FAILED TO TAILOR THE SENTENCE
TO THE INDIVIDUAL OFFENDER.
Discussion:
Defendant had a jury trial because there was no evidence saved or produced that Defendant
actually spit on the arm of the corrections officer. Mr. Richards, although 23 years old at the time
of this offense, bom 11/26/1989; offense date 01/03/2013; considering his form of autism, he may
have had the mind of a 15-year-old. (Please See Exhibits A - D). The court did not mention Mr.
Richard’s tender age. Defendant submits that the court failed to consider the mitigating factors, in
particular the fact that children are less culpable than adults, and it failed to tailor the sentence to
the individual offender, resulting in a disproportionate sentence.
Because children are inherently less culpable than adults, the United States Supreme Court
ruled that the Eighth Amendment prohibition on cruel and unusual punishment bars life without
parole sentences for youth convicted of homicide offenses. See Miller v Alabama, 132 S Ct 2455,
2464-2469 (2012). The Court said, “Children are constitutionally different from adults for
purposes of sentencing [and] they are less deserving of the most severe punishments.” (internal
citations omitted). Roper and Graham, infra, “establish that children are constitutionally different
from adults for the purposes of sentencing.” Miller, 132 S Ct at 2464. The hallmark features of
transient youthful immaturity include recklessness, impulsivity, risk-taking, and susceptibility to
peer pressure, Rover v Simmons, 543 US 551, 569; 125 S Ct 1183 (2005) , and render them, as a
class, “less culpable than adults.” Graham v Florida, 560 US 48; 130 S Ct 2011, 2028 (2011). The
Roper Court looked at scientific research showing that juveniles’ brains were less developed, a
physiological truth. Accordingly, it held that children were categorically different than adults and
could not be treated the same way at sentencing. Roper, supra at 1195-1200.
26

-A-

Youth is a mitigating factor in any juvenile crime, because of the inherent vulnerability to
peer pressure, impulsiveness, poor appreciation of consequences, and the less fixed nature of
character traits. Miller, 132 S Ct at 2463. These qualities separate the acts of children from the acts
of adults as to culpability; the two classes of offenders are different by definition. It is the difference
between these classes of offenders that is the heart of the Roper. Graham. and Miller decisions.
Without consideration of these differences at sentencing, the adult sentence imposed on Kyle
Richards, a juvenile offender by way of disease, is disproportionate. Id. Certainly it was incumbent
upon the trial judge to consider these factors.
Because the trial court failed to consider mitigating factors, the sentence was
disproportionate and excessive. As noted in People v Babcock, supra at 262, the “relevancy of
proportionality is obvious .... in any civilized society, punishment should be made to fit the crime
and the criminal.” See Weems v United States. 217 US 349, 367 (1910) (“[I]t is a precept ofjustice
that punishment for the crime should be graduated and proportioned to the offense.”)

A

proportionality analysis examines two factors - the severity of the offense and the seriousness of
the offender’s criminal record.
In People v Milbourn, 435 Mich 630 (1990), the Michigan Supreme Court
said:
"As stated over three quarters of a century ago by the United States
Supreme Court, "[I]t is a precept of justice that punishment for the
crime should be graduated and proportioned to the offense." Weems v
United States. 217 US 349, 367; 30 S Ct 544; 54 L Ed 793 (1910). In
more recent times, the Court has found defects of constitutional
magnitude in sentences which are disproportionate to the offense".
The Milbourn Court further said:
"Where a given case does not present a combination of circumstances
placing the offender in either the most serious or least threatening class
with respect to the particular crime, then the trial court is not justified
in imposing the maximum or minimum penalty, respectively.
27

HS

■ 6

Accordingly, if the maximum or minimum penalty is unjustifiably
imposed in this regard contrary to the legislative scheme, the reviewing
court must vacate the sentence and remand the case to the trial court for
resentencing. This discretion conferred by the Legislature does not
extend to exercises thereof which violate legislative intent; such
exercises are, therefore, an abuse of discretion."
The principle of proportionality requires the maximum sentence to be imposed for the
most serious offenses committed by those with the most serious prior criminal records:
In our judgment, it is appropriate-if not unavoidable-to conclude that,
with regard to the judicial selection of an individual sentence within the
statutory minimum and maximum for a given offense, the Legislature
similarly intended more serious commissions of a given crime by
persons with a history of criminal behavior to receive harsher sentences
than relatively less serious breaches of the same penal statute by first­
time offenders. People v Milbourn, supra at 635.
When the guidelines were judicial in nature, a situation not unlike the advisory guidelines
of today, the Supreme Court concluded that there may be circumstances in which a withinguidelines sentence is substantively unreasonable. As the Court in Milbourn held: “Conceivably,
even a sentence within the sentencing guidelines could be an abuse of discretion in unusual
circumstances.” People v Milbourn, supra at 658. Considering the mitigating factors in the instant
case, the sentence of 25 to 40 years is disproportionate and disparate. Again, Mr. Richards was
only 15 years old, mentally.
While the prosecution clearly showed there was an assault on a C/O, it was mere spittle
through a food slot in a cell door. There was no intent or attempt to injure.
The Court in Lockridse emphasized that the goal of the sentencing guidelines, both in
Michigan and in the federal courts, is to eliminate disparity in sentencing. Holding that trial courts
must consult the Guidelines, the Court said:
Such a system, while ‘not. the system [the legislature] enacted,
nonetheless continue[s] to move sentencing in [the legislature’s]
preferred direction, helping to avoid excessive sentencing disparities
while maintaining flexibility sufficient to individualize sentences
28

A

where necessary.’” Lockridee. supra (quoting Milbourne and United
States v Booker. 543 US 220, 264-265 (2004)).
18 USC 3553(a)(6) is also concerned with national disparities among the many defendants
with similar criminal backgrounds convicted of similar criminal conduct. See United States v
Poynter. 495 F3d 349, 351-56 (6th Cir 2007); United States v LaSalle. 948 F2d 215, 218 (6th Cir
1991); United States v Parker. 912 F2d 156, 158 (6th Cir 19901; United States v Simmons. 501 F3d
620, 623 (6th Cir. 2007).
The trial court in the instant case failed to individualize the sentence by failing to adequately
account for Mr. Richard’s tender age and his minimal involvement in an actual assault. Although
Mr. Richards had been in trouble before, the petty crime does not fit the time. The sentencing court
is required to individualize the sentence to the particular offender. In People v McFarlin, 389 Mich
557, 574 (1973), the Court emphasized its commitment to the principles that criminal punishment
must fit the offender rather than the offense alone and that sound discretion must be exercised in
sentencing matters:
“The modem view of sentencing is that the sentence should be tailored
to the particular circumstances of the case and the offender in an effort
to balance both society's need for protection and its interest in
maximizing the offender's rehabilitative potential. While the resources
allocated for rehabilitation may be inadequate and some persons
question whether rehabilitation can be achieved in the prison setting,
this view of sentencing is the present policy of the state. A judge needs
complete information to set a proper individualized sentence.”
(Emphasis supplied.) See North Carolina v. Pearce. 395 U.S. 711, 723,
89 S.Ct. 2072,23 L.Ed.2d656 (1969), citing Williams v. New York. 337
U.S. 241, 247, 69 S.Ct. 1079, 93 L.Ed. 1337 (1949).”
The Court emphasized the importance of individualized sentencing in People v Triplett.
407 Mich 510, 515-516 (1980):
“Sentencing must be individualized and tailored to the particular
circumstances of the case and the offender at the time of sentencing.
Sentencing a defendant without an adequate knowledge of his needs
would thereby reduce the sentencing process from a first step toward
29

M7

A

rehabilitation to the dignity of a game of chance.’ People v. Amos, 42
Mich.App. 629, 638, 202 N.W.2d 486, 490-91 (1972), cited with
approval in People v. Brown, 393 Mich. 174, 180, 224 N.W.2d 38
(1974). As correctly recognized by both the Court of Appeals majority
and dissent below: ‘The sentencing court should make every effort to
individualize sentences in order to further the goal of rehabilitation.’”
And as the Court stated in Miller, supra at 2467:
“Just as chronological age of a minor is itself a relevant mitigating
factor of great weight, so must the background and mental and
emotional development of a youthful defendant be duly considered in
assessing his culpability.” Mr. Richards requests a resentencing.
Because the sentence is disproportionate and disparate, and the judge failed to adequately
consider mitigating factors or individualize the sentence, Mr. Richards requests that this Court grant
resentencing.
(B) DEFENDANT-APPELLANT OBJECTS TO THE
PLAINTIFF-APPELLEE’S
MISLEADING
THIS
HONORABLE COURT RE: THE PSIR.
Discussion:
On page 8, Appellee claims “He refused to provide signature for release of information
regarding his mental-health history at the time of the PSI[R] interview.” Please take NOTICE that
Mr. Richard’s attorney points out the “Lori Bonn” PSI writer as a Defendant in a civil action 13cv-636; an ARUS for MDOC at Ionia; before she was a PSI writer. PLEASE see (Exhibit F,
Transcript pages which rebut Appellees fallacious claims re: PSI).

30

M8

PRAYER FOR RELIEF
WHEREFORE, for the foregoing reasons, Mr. Richards asks that this Honorable Court
to:

1.) Set aside Defendant-Appellants conviction and publish a Declaratory ruling
expounding the constitutional duty of the State law enforcement, most especially
prisons have to preserve material evidence & or materially potentially
exculpatory evidence. In such 'Declarations', appellant ask this court to define
the "scope" of preservation, in conjunction with policy expectations of Law
enforcement officials, as well as amending the current 'evidentiary standards' to
support a "Higher Grade of Protection" for criminal defendants. For too long,
state law enforcement has been allowed to tamper, Destroy, and spoil evidence
with impunity. We plead this court to issue a 'RED LINE' in regards to evidence
tampering, destruction, and spoliation, prescribing harsher penalties therefore.
2.) Set aside Appellant-Defendants conviction and publish a Declaratory ruling
establishing a "clear and concise" measure of validity, relating to; 'time of
request' and 'circumstances of request', of a defendants' demand to proceed
with Pro Se self-representation. As of now, there is excess Ambiguity manifest
in a 'conflict' of decisions that need a Dire uniformed conclusive Declaration of
Supreme Authority, to Govern this sixth Amendment request.
3.) Remand for Resentencing along with a publication of a Declaratory ruling,
setting forth a 'Red Line' relating to the prolonged incarceration of the Serious
Mentally ill Offenders. Where does the federal court draw the line, when it
comes to imposing "Virtual Death Sentences" on mentally disabled offenders
who are unlikely to survive their sentences.

Dated: October <9^
Respectfully Submitted,

Kyle B. Richards #641715 •
Baraga Correctional Facility
13924 Wadaga Rd.
Baraga, MI 49908
6

M>

REASONS FOR GRANTING THE PETITION

Tv»e Cs>tv*
coa ( q3 Cqovt ov Appeous \ ho=j
ru^4 AFOoM OF The UocO^oV SftoOO/M'Q 3eT 3y Th\e>
Supreme CoarT, For ^eor\y a oecoAe Tv>e £3*™
CtreuiT GOA V\OS freQuenTly
<2>1OT erpreT CO AOO
ni'i'BApprieo o~3 Sopreme Goon precedent To
Caspar c^<® Gopre^e Coorv AoiVvom/,

This, Cose GonTrAVC^/ PreseotG ‘oe.vercA \osto oc&^>
GPHere The CbTw ClreoT COA
ST^rpQlcAOTVjy
Osorped apeu £.s'tAb\\6heo supreme Coott
AuTHorH/,, (The- 0.3 Supreme Caorr phO&T /NOT ^
GPhaT The &ty% Drco,'-T

mqs>

Done lo Ths

C^se- ^
Ta3\e To * joci^oot murtMy* o°
bewa\F OF The Uooper Coor-ps.
f snu onjeeided, uoaear poco 1
PerlTioner 3eev€<5 A v deci&Tpnrosy R<oV»o^)/ ?ra(Ti The,
Oniteo ^TATeS Supreme Coovt , To O arHQy
FPaTT©r3 OF

Moco

LcOOJ

AA^ve££*20 'n TrV\3

Pernios,

QoeSTOHS perroiO\Ooj To * 3*eA33W3
SeoT0ry(j;n°) AOQ *Ol<bproQOrT\OOQVhy * GjAoONO he
Appueo T0 '"meoTA\y T\'" OFFenoer^,. A-O OF noco,
Vou^ if It \e> G3\TV\’\0 The
A

8'rw Am

^eoTence

v3

---

„0 _

Go‘v^e\if>efe* ^OT uAhaT
he.
Goioenuee'' Are- Thero^gAF 0' *Gp rOpovTi O OAT3«
Secono ,

13

Ooe Rocje/=#=>.

n

3

Haca For AT>\\ coe. auoca

Pol t CG FT <2*0000 Q-CT To O’^urb The coarse OF Jo^FCC.
'Arizona V<b. yoorv^VAood, 'OS 3-0. 333, i3 00 'on^r
3oFF?c.'ieoT To repress Ona boseo £,u\oeoc/e 39011 ^Ton
Or Pohee. m^ocGo^ocr In Tv>\3 c^^.

A YG9jG_> ROLF. OF LOO) X3> ^£30^,0

A

30

PRAYER FOR RELIEF
WHEREFORE, for the foregoing reasons, Mr. Richards asks that this Honorable Court to:
1.) Set aside Defendant-Appellants conviction and publish a Declaratory ruling
expounding the constitutional duty of the State law enforcement, most especially
prisons have to preserve material evidence & or materially potentially
exculpatory evidence. In such ‘Declarations’, appellant ask this court to define
the “scope” of preservation, in conjunction with policy expectations of Law
enforcement officials, as well as amending the current ‘evidentiary standards’ to
support a “Higher Grade of Protection” for criminal defendants. For too long,
state law enforcement has been allowed to tamper, Destroy, and spoil evidence
with impunity. We plead this court to issue a ‘RED LINE’ in regards to evidence
tampering, destruction, and spoliation, prescribing harsher penalties therefore.
2.) Set aside Appellant-Defendants conviction and publish a Declaratory ruling
establishing a “clear and concise” measure of validity, relating to; ‘time of
request’ and ‘circumstances of request’, of a defendants’ demand to proceed
with Pro Se self-representation. As of now, there is excess Ambiguity manifest
in a ‘conflict’ of decisions that need a Dire uniformed conclusive Declaration of
Supreme Authority, to Govern this sixth Amendment request.
3.) Remand for Resentencing along with a publication of a Declaratory ruling, setting
forth a ‘Red Line’ relating to the prolonged incarceration of the Serious Mentally
ill Offenders. Where does the federal court draw the line, when it comes to
imposing “Virtual Death Sentences” on mentally disabled offenders who are
unlikely to survive their sentences.

Respectfully submitted,

Dated: OcJ

3QQ0>
Kyle Richards

31

<•

<o\

Re\‘\cr

^oooGjvat

Vqcotc CoonAcy'^oo
Ar>o remaoo
<P. I

PoVs’u^w a wexD
Dec\e»roTory PoY\o^
O \-QCj3 £<=jTOt>\Y e>Wt\r\

W\GM&~ ^oTHOr^Ty re^«rO"o^
I'bsoe^ preeenTeo.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted

Date: QcJoVoer,

3QSO

